United States Department of Agriculture
Office of Inspector General




Review of Procurement Operations




                                          Audit Report 92501-0001-12
                                          September 2013
                                                 Review of Procurement Operations

                                                     Audit Report 92501-0001-12


What Were OIG’s
Objectives
The objectives of this audit
were to evaluate the
effectiveness of the controls
POD has in place to ensure the
integrity of the requisition,      OIG audited OPPM-POD to evaluate
solicitation, and procurement
processes across Departmental      the effectiveness of the controls in place
Management and Staff Offices       to ensure the integrity of the procurement
involving vendors,                 process.
procurement staff, and OCIO
personnel.
                                   What OIG Found
What OIG Reviewed
We judgmentally selected a         The Office of Procurement and Property Management’s (OPPM)
sample of 18 IT-related            Procurement Operations Division (POD) is responsible for processing
contract award identification      procurements for Departmental Management and Staff Offices. OIG
numbers from fiscal years          reviewed POD’s controls over the procurement process and found
2009, 2010, and 2011, from         several issues POD needs to address. First, POD was not keeping
which we reviewed associated       sufficient documentation during the acquisition and invoicing
IT requisitions, solicitations,    processes for Departmental Management and Staff Office information
and contract award                 technology (IT) procurements. This occurred because POD did not
documentation.                     require a centralized method or system—such as the Integrated
                                   Acquisition System (IAS) or the Enterprise Content Management
What OIG Recommends                system (ECM)—to track and store all documentation. Second,
                                   Departmental Management and Staff Office personnel had issues with
OPPM should require a              IAS user accounts, including undefined user roles and users with
centralized repository for         excessive access abilities. This occurred because the Procurement
procurement and invoicing          Systems Division (PSD), which manages IAS, has not kept the system
documents, and update IAS          up-to-date to safeguard against vulnerabilities, including the
guidance to address user           documentation of how IAS integrates with the Department’s new
account issues and how IAS         accounting system. We found that a POD contracting officer signed
will interface with the            three contract actions that exceeded the contracting officer’s warrant
Department of Agriculture’s        authority. This went undetected by POD because it did not have
new financial system. We also      formalized policies and procedures to monitor contracting officers’
recommended that OPPM              actions, which was conveyed to management in November 2011.
identify whether other
contracting officers have          OPPM generally agreed with OIG’s findings and we have reached
exceeded their warrant             management decision on 10 of the report’s 12 recommendations.
authority and establish internal
controls to ensure warrant
levels are not exceeded.
                          United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 27, 2013

AUDIT
NUMBER:        92501-0001-12

TO:            Lisa Wilusz
               Director
               Office of Procurement and Property Management

ATTN:          Lennetta Elias
               Audit Liaison

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Review of Procurement Operations


This report presents the results of the subject audit. Your written response to the draft report,
dated August 30, 2013, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated in the relevant sections
of the report. Based on your response, we were able to accept management decision on
Recommendations 1-2 and 5-12 in the report. To reach management decision on the remaining
recommendations, please see the relevant OIG Position sections in the audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Documentation and Controls .............................................................. 3
Finding 1: Insufficient Procurement Documentation ......................................... 3
         Recommendation 1 ........................................................................................6
         Recommendation 2 ........................................................................................6
Finding 2: Internal Controls for IAS Need to be Strengthened ........................ 8
         Recommendation 3 ........................................................................................9
         Recommendation 4 ......................................................................................10
         Recommendation 5 ......................................................................................10
Section 2: Warrant Authority Exceeded ........................................................... 11
Finding 3: POD Lacks a Process to Effectively Monitor and Administer
Oversight of the IT Contracting Branch ............................................................ 11
         Recommendation 6 ......................................................................................13
         Recommendation 7 ......................................................................................13
         Recommendation 8 ......................................................................................13
         Recommendation 9 ......................................................................................13
         Recommendation 10 ....................................................................................13
         Recommendation 11 ....................................................................................13
         Recommendation 12 ....................................................................................13
Scope and Methodology ........................................................................................ 14
Abbreviations ........................................................................................................ 16
Agency's Response ................................................................................................ 17
Background and Objectives 
Background
The Procurement Operations Division (POD) is the contracting office responsible for processing
the procurements of Departmental Management (DM) and Staff Offices.1 Originally a part of
DM, in 2012, POD was realigned under the Office of Procurement and Property Management
(OPPM). POD consists of three branches: the Information Technology (IT) Contracting Branch,
the Service Supply and Construction Contracting Branch, and the International Technology
Services Branch. For this audit, all contract actions reviewed pertained to IT acquisitions and
payments, which were processed by the IT Contracting Branch.

Each branch within POD has its own branch chief and designated contracting officers.
Contracting officers prepare solicitations, awards, and contract modifications, which are assigned
to them based on workload, expertise, and warrant authority. The branch chiefs are contracting
officers with an unlimited warrant authority and can approve contracts for higher amounts.
Branch chiefs are also responsible for reviewing certain contract file documentation prior to
awarding a new contract or modifying an existing contract. POD also relies on the Department
of Agriculture’s (USDA) agencies to ensure agencies’ procurement needs are met, especially for
technical or IT-based acquisitions. The liaison between the agency and POD is the contracting
officer’s representative (COR).

In addition to POD, OPPM manages the Procurement Systems Division (PSD); its mission is to
provide dynamic and integrated solutions, products, and services in support of USDA’s
leadership and acquisition community. PSD’s primary responsibility is the development,
deployment, operation, and maintenance of a Department-wide procurement application known
as the Integrated Acquisition System (IAS), as well as supporting USDA’s acquisition
community of 6,000 users. USDA utilizes IAS to assist with its purchasing and contracting for
goods and services procured from different vendors around the country. For example, POD
uses IAS to process contract awards and modifications, and maintains paper-based files that
detail the contract actions, decisions, and justifications made during the procurement.

Besides IAS, USDA also utilizes the Enterprise Content Management (ECM) system to house
electronic copies of invoices. Specifically, ECM is a National Information Technology Center
(NITC)-based, mission-critical system that allows USDA to manage business documents,
including correspondence. USDA agencies and offices are utilizing the ECM Invoice Processing

1
  Departmental Management and Staff Offices for the purposes of this report consist of the Office of Advocacy and
Outreach, Office of Human Resource Management, Office of the Administrative Law Judges, Office of the Judicial
Officer, Office of Operations, Office of Homeland Security and Emergency Coordination, Office of Small and
Disadvantaged Business Utilization, Office of Procurement and Property Management, Office of Budget and
Program Analysis, Departmental Management, Office of the Chief Financial Officer, Office of Communications,
Assistant Secretary for Civil Rights, Office of the Chief Economist, Office of the Executive Secretariat, Office of
the General Counsel, Office of the Chief Information Officer, Office of Congressional Relations, Office of Ethics,
National Appeals Division, and Office of the Secretary of Agriculture. These entities will be referred to as “DM”
for the remainder of the report.


                                                                         AUDIT REPORT 92501-0001-12               1
Module to store USDA invoices in a centralized repository; managers use the module to manage
the approval and payment processing of invoices. During the course of our audit, an additional
invoice processing module was introduced within USDA. The Department of Treasury’s
Internet Processing Platform (IPP), once fully implemented across all USDA agencies and
offices, will provide a single integrated, secure system to simplify how USDA manages vendor
invoices and intra-Government transactions. Because IPP was in the implementation phase
during our fieldwork, no formalized testing of the system was performed.

As part of its oversight responsibilities, the Office of Inspector General (OIG) performs an
annual review to assess the Office of Chief Information Officer’s (OCIO) compliance with the
Federal Information Security Management Act (FISMA). During the fiscal year (FY) 2011
FISMA audit, OIG assessed whether USDA established and maintained a program to oversee
systems operated on its behalf by contractors or other entities, [Redacted Text].2 We reviewed
the agreement between USDA and the IT provider3 to determine whether contractual agreements
were properly documented, authorized, and maintained. We identified one contract action that
was signed by a contracting officer with inadequate warrant authority. This finding resulted in
additional audit work, for which we issued a Fast Report.4 Based on the issues identified during
our work on the Fast Report, we chose a sample of OCIO IT requisitions, solicitations, and
contract awards, which narrowed the focus of our audit to OPPM POD’s IT Contracting Branch.

Objectives
The objective of this audit was to evaluate the effectiveness of the controls POD has in place to
ensure the integrity of the requisition, solicitation, and procurement processes across
Departmental Management and Staff Offices involving vendors, procurement staff, and OCIO
personnel.




2
  [Redacted Text]
3
  Referred to as “IT Contract” for the purposes of this report.
4
  Information Technology Contract (92501-0001-12(1), November 16, 2011).

2     AUDIT REPORT 92501-01-12
Section 1:  Documentation and Controls 
Finding 1: Insufficient Procurement Documentation
We found that POD was not keeping sufficient documentation on the acquisition and invoicing
processes for USDA IT procurements. This occurred because OPPM does not require a
centralized method to track and store all documentation. Instead, information documenting
contract decisions and actions is sometimes input into the information systems, but sometimes is
retained in email, or not stored at all. Additionally, POD does not always review documentation,
and occasionally had data input errors. Because of inadequate documentation, OPPM cannot
demonstrate that contracts were awarded in the Department’s best interest. OPPM also lacks a
complete history for approved invoices totaling $8.5 million.

POD is responsible for procuring DM and Staff Offices’ IT products and services, and must do
so in a spirit of open competition. According to the Federal Acquisition Regulation (FAR),
USDA must maintain sufficient documentation and a complete history of all contracting actions
to provide a basis for decisions and actions, provide information for reviews, and furnish
essential facts in the event of litigation or Congressional inquiries.5 Additionally, OMB Circular
A-123 states that agencies must timely record expenditures to ensure accountability and reliable
financial and statistical records, and that agency management should have a clear, organized
strategy with well-defined documentation processes that contain an audit trail.6 FAR 32.907(c)
also requires that a Government official must authorize all invoice payments. To comply with
this, OPPM determined that, while contracting officers would prepare solicitations, awards, and
contract modifications, the contracting officer’s representative (COR) would authorize the
invoice and forward it to the contracting officer for approval within IAS.

However, we found that POD had not been keeping sufficient documentation in accordance with
these standards. For example, we looked at 18 awards for IT acquisitions conducted in FYs
2009, 2010, and 2011—11 of which were awarded under blanket purchase agreements (BPA).
These BPAs allow recurring purchases to be made through one agreement, rather than requiring
a new agreement for each purchase. Because BPAs establish a longstanding contractual
agreement, it is important that they be solicited and awarded in a fair and competitive manner.
We found that 10 of the 11 BPA contract files did not contain supporting documentation
justifying the vendor selection process. Without this justification, POD has no assurance that
BPAs were solicited in a spirit of open competition, and that agreements were made to the best
advantage of the Government. A Presidential memorandum has expressed concerns that
excessive reliance on contracts with a limited number of sources increases the risk that taxpayer
funds will be spent on wasteful or inefficient contracts.7 We found that 1 of the 6 BPA holders
was issued 75 of 140 orders (approximately 54 percent). We reviewed eight of these orders, and
found that none provided a justification for offering the award solely to the awarded vendor.
While POD may have justifiable reasons for doing so, this must be documented.


5
  FAR Subpart 4.801(a)-(b), Federal Acquisition Regulation Federal Acquisition Circular 2005-51, April 1, 2011.
6
  OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.
7
  Memorandum for the Heads of Executive Departments and Agencies, Subject: Government Contracting, March 4,
2009.

                                                                      AUDIT REPORT 92501-0001-12              3
In addition, the 18 awards for IT acquisitions that we reviewed generally lacked documentation
that would justify decisions and ensure that procurement actions were carried out fairly:

·   For 6 of the 18 awards, the documentation in the contracting files inadequately supported the
    awarding decisions, meaning that POD lacks the information necessary to defend its actions,
    if disputed.
·   For 3 of the 18 awards reviewed, the contract file did not document how and where the offer
    was presented to the public, which is required to determine fair and open competition.8
·   For 12 of the 18 awards, Federal Procurement Data System-Next Generation (FPDS-NG) 9
    data did not accurately represent the information contained in the contract file, such as
    justification for sole-source contracts, or the number of offers received.

We also audited the 106 invoices pertaining to these awards and found that 50 invoices, relating
to 11 contracts and totaling approximately $8.5 million, did not have a COR’s documented
approval. The COR’s approval is key because the COR has the necessary knowledge, insight,
and responsibility for verifying that the invoice is for work that was actually performed or
delivered.

These issues occurred because (1) POD has not been using a centralized method of tracking and
storing all documents and did not maintain support for invoice payments and awards in its
contract files, (2) POD has not been effectively reviewing files, and (3) one of the data systems
used requires manual data entry, leaving it vulnerable to input errors.

        Lack of Centralized Storage System

        We found that POD did not have sufficient documentation because it has not been using a
        centralized method of tracking and storing all documentation, even though USDA has
        systems in place that could accomplish this. USDA’s procurement information system,
        IAS, stores records generated during the procurement process. Despite the fact that this
        system is available, we found that USDA is not using it regularly. For example, we
        found that contracting officers were using the system to generate the contract award
        identification (ID), but were not storing justifications for the awards in IAS, the contract
        file, or anywhere else. Also, the Department has a system in place to track and store
        invoice data, which relies upon two systems: IAS and ECM. However, we have found
        that CORs are not consistently using the invoicing system, ECM. As a result,
        information and CORs’ approvals are not consistently stored in any single location, and
        can easily be misplaced or lost. CORs often, instead, approve invoices through email,
        which does not allow easy monitoring, tracking, centralized storage, or communication of
        important details.




8
  Agencies must post offers in a public forum, such as the Federal Business Opportunities (www.fedbizops.com)
webpage, and allow all suitable vendors to submit proposals. Without proof of where the offer was presented for
competition, USDA cannot defend its assertion that the proposal was truly a fair and open competition.
9
  FPDS-NG is used to track all contract actions within the Federal Government for contracts whose estimated value
is $3,000 or more.

4     AUDIT REPORT 92501-01-12
When asked, OPPM officials stated they thought they had required IAS to be
implemented; however, officials could not provide evidence supporting the requirement
to implement IAS and did not specify which documents needed to be stored in IAS.
OPPM should require the use of these or other similar systems as a central repository for
procurement and invoice documentation.

In response to our audit work, OPPM issued Agriculture Acquisition Regulation (AGAR)
Advisory 105 on October 1, 2012, which requires USDA personnel to use automated
procurement systems for processing and storing procurement records. This guidance
states that contracting officers should fully utilize the automated procurement system
capability to create and maintain a complete electronic procurement/contract file inside
the system and references FAR 4.803, which lists 42 types of records that are normally
contained within a contract file, including justifications and approvals, determinations
and findings, and associated documents. If properly adhered to and enforced, AGAR
Advisory 105 should address these documentation issues and the corresponding audit
recommendation for creating a centralized database of electronic procurement records.

In addition, the Department of the Treasury is currently deploying a Governmentwide
invoice processing system. IPP will provide a single integrated, secure system to
simplify how USDA manages vendor invoices and intra-Government transactions. For
payment, vendors will submit their invoices to IPP, which will electronically record and
notify USDA of any invoice awaiting payment. IPP also automates and supports an
invoice approval process by offering multiple approval steps and options to delegate,
reassign, or escalate an invoice if it is not processed properly. Once DM and Staff
Offices have migrated to IPP and vendors begin to use the payment platform, its use
could assist OPPM in maintaining and tracking invoices and invoice approvals that were
not always being completed, as noted in our audit findings.

Ineffective Review

Additionally, POD had not effectively reviewed the FYs 2009, 2010, and 2011
procurement files we reviewed. Although POD had a policy in place to review pre-
contract actions, it was not always being followed. For example, we found POD
management did not review 4 of the 18 files that we had identified as lacking
documentation to support the award decision—even though these files were subject to
review, according to the POD contract review policy. In February 2012, which was
subsequent to the scope of our sample, OPPM issued a more stringent pre-contract review
procedure. This new procedure, if followed, should help identify missing documentation.
Therefore, we are not making a recommendation to address this finding at this time.




                                                      AUDIT REPORT 92501-0001-12        5
       Manual Data Errors

       Finally, some documentation issues—such as lack of justification for sole-source
       contracts or the number of offers received—occurred because of manual input errors.
       When we spoke to agency officials, they explained that, because some FPDS-NG fields
       require manual data entry, sometimes contracting officers input information inaccurately,
       as was the case with the 12 of 18 contract files with inaccurate information. OPPM
       should ensure information is properly entered into FPDS-NG.

Without sufficient documentation, USDA will not have full transparency in procurement
operations and cannot ensure that contracts were awarded in a fair and openly competitive
manner in the Department’s best interest, or that procurement records can be adequately
produced to support awarding decisions in defense of disputed contract actions and decisions.
Additionally, because of inadequate documentation, OPPM lacks a complete history for
$8.5 million in approved invoices.

Recommendation 1

Require Departmental use of automated systems, such as IAS and/or similar systems, to maintain
contractual documentation in a centralized repository, including documents generated during the
procurement and invoicing process.

Agency Response
In the agency’s response, dated August 30, 2013, OPPM officials stated the Procurement Policy
Division issued AGAR Advisory 105 on October 1, 2012, regarding the use of IAS. OPPM only
manages IAS, consisting of Prism and iProcurement. OPPM will continue to explore the
applicability of adding other systems to the Department's mandate.

OIG Position

We accept OPPM’s management decision.

Recommendation 2

Develop a process to verify information entered into the FPDS-NG so that it accurately reflects
information contained in the contract file.

Agency Response
POD will revise its internal Acquisition Operating Procedure Number 8, Pre-award and Post-
award File Review, to include FPDS-NG by August 30, 2013.




6    AUDIT REPORT 92501-01-12
OIG Position

We accept OPPM’s management decision.




                                        AUDIT REPORT 92501-0001-12   7
Finding 2:  Internal Controls for IAS Need to be Strengthened 
We found 6 IAS users with excessive access authorities and 20 IAS user roles that were
undefined. This occurred because PSD, which manages IAS, did not have procedures in place to
verify excessive access rights, or to verify that temporary account escalations were timely
removed. Also, PSD had not updated its guidance on how IAS would interact with the
Department’s current Financial Management Modernization Initiative (FMMI) system, even
though most USDA agencies have fully implemented FMMI. Additionally, multiple user roles
occurred because OPPM had not successfully integrated two standalone software packages in
IAS.10 Unknown access types, multiple user roles, and temporary access can increase the risk of
personnel potentially performing unauthorized functions, violating segregation of duties, as well
as hindering OPPM’s oversight regarding the actions taking place within IAS. In addition, if an
interconnection is not properly designed, security failures could compromise the connected
systems and the data that they store, process, or transmit. Without controls in place to prevent
and address these issues, USDA’s procurement process will remain vulnerable.

As a Federal information system, IAS is subject to the National Institute of Standards and
Technology (NIST) Special Publication 800-53 guidance, which requires controls to be
implemented for accessing and maintaining an information system.11 Specifically, OPPM’s PSD
must develop and implement an access control policy and procedure, which addresses the
purpose, scope, roles, and responsibilities for allowing access to IAS, including how access is
authorized and established. PSD must also manage IAS user accounts, including (1) identifying
account types, (2) specifically authorizing and monitoring the use of guest/anonymous and
temporary accounts, (3) deactivating temporary accounts that are no longer required, and
(4) periodically reviewing accounts. Additionally, the OPPM Procurement Management
Narrative, which is based on OMB A-123 guidance, documents the internal control environment
related to procurement activities within USDA. The narrative specifically prohibits a user from
having two conflicting roles within IAS. This restriction ensures that users do not have the
ability to single-handedly complete the entire purchasing process within IAS.

We found that IAS had several user account issues within DM and Staff Offices. Specifically,
IAS had 44 user roles (such as requisitioner, receiver, and contracting officer). However, 20 of
these 44 roles were undefined in IAS supporting documentation, which could allow a user
unknown authorities that may violate internal control and segregation of duty procedures.
Additionally, while we did not identify any instances of a violation of segregation of duties, we
found that 6 of the 208 IAS users in DM and Staff Offices had access abilities in excess of the
internal controls outlined by OPPM’s Procurement Management Narrative—which could
potentially allow users to violate segregation of duties. We also noted that of the 45 IAS users
with approval authority in OPPM, 1 had a temporary approval authority within IAS that
remained active for 16 months. Temporary authorities or access rights should be monitored and
removed when no longer needed to prevent unauthorized transactions from occurring.


10
   The two standalone commercial off-the-shelf (COTS) business software suites are Oracle iProcurement and
PRISM Procurement.
11
   NIST, Recommended Security Controls for Federal Information Systems and Organization, AC-1 and AC-2,
August 2009.

8     AUDIT REPORT 92501-01-12
These user account errors occurred because PSD did not have procedures in place to verify
excessive access rights, or to verify that temporary account escalations are removed in a timely
manner. We also found that users have multiple user roles because OPPM has attempted to
integrate two standalone software packages in IAS. During the IAS implementation, it was
determined two separate software packages were needed to form the foundation of IAS.
However, because each package generates user roles for each user, using two packages has
resulted in multiple user roles.12 PSD should consider using only one software package,
particularly since these software packages duplicate functions and data. Based on a PSD
analysis, if OPPM were to use only one software package, it would save $3 million to $4 million
annually through reduced software licenses, employee and contractor costs, and data storage
requirements. OPPM is aware of this issue and has stated that it plans to research this issue
further. Once OPPM has researched these issues, it should implement sufficient procedures to
streamline IAS.

In addition to the user account issues identified, PSD has also not outlined how IAS
interconnects with the Department’s current FMMI system. When we spoke with agency
officials, they stated that they were waiting for all USDA agencies and offices to utilize FMMI
before formally documenting how the two systems would interact. However, this work should
have been done before conversion to a new financial system to ensure a smooth implementation
of FMMI and to identify any control risks present by interconnecting the systems. As of
February 2013, all USDA agencies were using FMMI to some extent. If the interconnection is
not properly designed, security failures could compromise the connected systems and the data
that they store, process, or transmit.13, 14

Undefined user roles, multiple user roles, and temporary access can increase the risk of personnel
potentially performing unauthorized functions, violating segregation of duties, as well as
hindering OPPM’s oversight regarding what actions are taking place within IAS. Without
updated guidance, IAS will not be safeguarded against vulnerabilities, as well as any potentially
problematic interactions with FMMI. Since OPPM uses IAS to process DM and Staff Office
procurements, control weaknesses may compromise the integrity of the procurement process.

Recommendation 3

Implement sufficient procedures to periodically review all IAS accounts in order to detect
excessive access rights, and to verify temporary account access is removed in a timely manner.

Agency Response

PSD has an established program for the review/re-certification of both Privileged and Non-
Privileged accounts. PSD, as a result of this report, has already taken action to ensure that roles


12
   These software packages are commercial off-the-shelf products. While they have standalone capabilities, OPPM
has decided to utilize both without properly interfacing them.
13
   FMMI is a COTS enterprise resource planning (ERP) solution to replace the legacy mainframe systems with an
advanced, Web-based financial management system. (http://info.fmmi.usda.gov/About/About_home.html).
14
   NIST SP 800-47, Security Guide for Interconnecting Information Technology Systems, August 2002.

                                                                       AUDIT REPORT 92501-0001-12             9
that are not used in IAS have been removed and all user roles are well defined. PSD will explore
procedures to enable regular agency and internal review by user permissions/roles.

OIG Position

We are unable to reach management decision based on OPPM’s response. We acknowledge that
PSD has established procedures for the review of both privileged and non-privileged accounts.
However, at the time of our audit, PSD did not have procedures in place to specifically detect
IAS access rights in conjunction with user warrant authorities, which, when combined, can give
a user excessive access rights. Additionally, PSD did not have a procedure in place to detect
users that were granted temporary account access that had not been timely removed. In order to
reach management decision, PSD should incorporate procedures to identify these types of user
accounts into its established review of privileged and non-privileged user accounts.

Recommendation 4

Update guidance to incorporate IAS’s interface with the FMMI system.

Agency Response

According to OPPM’s response, new IAS documents will no longer contain information and
references to FFIS. Existing IAS documents will be canceled, revised, or replaced, as necessary.

OIG Position

We are unable to reach management decision based on OPPM’s response. In order to reach
management decision, PSD needs to update existing IAS documentation to incorporate the
interconnections with FMMI.

Recommendation 5

Evaluate whether OPPM can streamline IAS from two software packages to one.

Agency Response

PSD has already issued a Task Order to analyze options for the future state of IAS.

OIG Position

We accept OPPM’s management decision.




10     AUDIT REPORT 92501-01-12
Section 2:  Warrant Authority Exceeded 
Finding 3: POD Lacks a Process to Effectively Monitor and Administer
Oversight of the IT Contracting Branch
We found a USDA contracting officer signed three contract actions that exceeded the contracting
officer’s warrant authority. POD did not detect this issue because it lacks formalized policies
and procedures to adequately monitor and administer effective oversight of the IT Contracting
Branch. Specifically, while POD reviewed weekly reports from its contracting officers, these
reports are informal and did not provide information needed to identify the contracting officers’
violations. Because the warrant authority was exceeded, the contracts are unauthorized
commitments, and must be ratified by someone with sufficient authority. Additionally, without
proper oversight of the contracting officer’s actions, unauthorized commitments may continue to
occur. These issues were conveyed to POD in November 2011 and corrective actions were
taken.

According to the FAR, contracting officers may bind the Government only to the extent of the
authority delegated to them.15 In addition, according to the FAR and AGAR,16 the action taken
by the USDA official without the appropriate warrant authority constitutes an “unauthorized
commitment” and requires that the contract be ratified.17 Documentation of the ratification
should be in the contract file for audit purposes.

However, we found that a contracting officer in POD’s IT Contracting Branch signed an IT
contract that exceeded his/her warrant authority. We also noted that the same contracting officer
later signed two other contract actions in excess of his/her warrant authority.

We discussed this issue with Departmental officials, who agreed that the contracting officer did
not have the proper warrant authority to sign the IT contract. The Deputy Director of OPPM
concurred that signing a contract that exceeded a warrant level is considered an unauthorized
commitment. In response, POD reduced the contracting officer’s warrant authority from
$5 million to $500,000 and stated that this was the appropriate disciplinary action. Additionally,
signatory responsibilities for the IT contract have been assigned to another contracting officer,
who has the appropriate warrant authority.

Upon further review, we learned that this contracting officer had a history of violating FAR
requirements and exceeding his/her warranted authority. Previously, it was noted that the
contracting officer acted outside of assigned roles and responsibilities; disclosed sensitive
contractual information to vendors; authorized a contractor to work, even though funding was




15
   FAR 1.602-1.
16
   FAR 1.602-3(a) and AGAR 401.602-3(a).
17
   When a contract is entered into that exceeds the contracting officer’s authority, it is referred to as an
“unauthorized commitment.” To correct this situation, an authorized official must “ratify” the “unauthorized
commitment,” which requires that the individual, who entered into the commitment, explain why the warrant
authority was exceeded.

                                                                       AUDIT REPORT 92501-0001-12              11
not available;18 and signed contract actions in excess of his/her warrant authority. Management
was aware of previous warrant authority misuse. In one instance, the contracting officer’s
warrant was reduced from $25 million to $200,000, but he/she still maintained a warrant and
continued to sign IT contract actions. Based on this history of repeated violations, it does not
appear that management has taken effective measures to prevent the recurrence of inappropriate
actions.

These issues have persisted because POD lacks a process to adequately monitor and administer
effective oversight of its IT Contracting Branch. While the IT Contracting Branch Chief requires
the staff to complete a weekly report that shows the status of the solicitations and contracts that
the contracting officers are working on, OIG noted that the reports are not formal in nature or
functioning as designed and did not identify the contracting officer’s violation of FAR and
AGAR guidance.19 When we reviewed the weekly reports for this contracting officer, we found
that they were incomplete and did not indicate what contract actions the contracting officer
signed. Specifically, the status report for the period when this contract was signed did not state
the amount of the award, including the base and option years, and did not note that the
contracting officer had signed the contract. Moreover, reports from the previous month did not
indicate that the contracting officer had worked with OCIO when soliciting and awarding the IT
contract.20 When asked why the contracting officer had signed the contracts that had exceeded
his/her designated warrant authority, the contracting officer explained that these mistakes were
inadvertent; the contracting official had a heavy workload and was aware that the IT Contracting
Branch was shorthanded. Without information, such as specific contract actions, or regular
reviews of the reports, inadvertent oversights can go unaddressed. We concluded that POD
needs to formalize the process for completing the weekly status reports, so they become a
valuable control for the Contracting Branch Chief’s oversight of contracting officers.

We noted in the November 2011 Fast Report that POD should document why the contracting
officer exceeded his/her designated warrant authority level and take the necessary action to
ensure that IT contracts are administered in accordance with Federal and Departmental
regulations. POD should review other contract actions signed by this individual, as well as other
contracting officers, to determine if they have exceeded their warrant authority, implement
effective procedures to prevent this from recurring, and take any necessary disciplinary action. If
unauthorized commitments are identified, the contract actions need to be ratified. In addition,
USDA needs to notify vendors when the designated USDA contracting officer changes by
issuing a contract modification.

OPPM responded to the Fast Report (http://www.usda.gov/oig/webdocs/92-501-0001-12(1).pdf)
upon its release and subsequently on February 12, 2012. Based on these responses, we are able
to reach management decision upon issuance of this report. Additionally, on March 22, 2013,
we received a status update from OPPM, detailing the corrective action taken to address the
issues noted in this finding, including revising a checklist to ensure all pre- and post-award

18
   In FY 2005, five contract actions were ratified because in 2004, the contracting officer authorized a vendor to
work prior to ensuring funds were available.
19
   The IT Contracting Branch Chief required his staff, per an email dated June 2009, to complete a template that
shows the status of the solicitations and contracts that the contracting officers are working on to help monitor his
staff.
20
   We reviewed the weekly status reports for January through April 2010.

12       AUDIT REPORT 92501-01-12
acquisition requirements are documented, developing a procurement management oversight plan,
and performing a complete review of contract files. According to the update, all
recommendations have been addressed with the exception of an Acquisition Management
Review of POD; the results of this review are pending. Based on the initial response and the
subsequent actions taken, no additional response to Recommendations 6-12 is necessary.

Recommendation 6

Ratify the IT contract and have the contracting officer document why the warrant level was
exceeded, as required by the FAR and the AGAR.

Recommendation 7

Take the necessary actions to ensure that all contracts are administered in accordance with
Federal and Departmental regulations.

Recommendation 8

Determine if other contracting officers exceeded their warrants and take any appropriate
management action.

Recommendation 9

Implement the necessary internal controls to ensure warrant levels are not exceeded.

Recommendation 10

Formalize the weekly status reporting tool and implement the necessary controls to help ensure
the reports provide effective oversight of contracting officers’ procurement activities.

Recommendation 11

Ratify all contracts that were obligated by contracting officers with insufficient warrant
authority.

Recommendation 12

Issue a modification for all contracts where the contracting officer has changed.




                                                             AUDIT REPORT 92501-0001-12       13
Scope and Methodology 
We conducted this audit to evaluate the effectiveness of the controls POD has in place to ensure
the integrity of the requisition, solicitation, and procurement processes across DM and Staff
Offices involving vendors, procurement staff, and OCIO personnel. POD, under OPPM’s
authority, is responsible for processing DM and Staff Offices’ procurements, totaling
approximately $1.4 billion in contract awards for FYs 2009, 2010, and 2011.21

Fieldwork was conducted at USDA offices located in Washington, D.C., and Kansas City,
Missouri, from May 2012 through March 2013. We judgmentally selected a sample of IT
requisitions, solicitations, and contract awards from FYs 2009, 2010, and 2011. The time period
was chosen based on the timing of the initial contracts identified in our Fast Report (92501-01-
12(1)). We initially selected 18 contract files. However, during our invoice review, we
expanded this to 21 contract files because some of the invoices included within the sample were
for multiple contract awards. Additionally, we chose our sample based on OCIO IT requisitions,
solicitations, and contract awards, which narrowed the procurement focus of our audit to OPPM
POD’s IT Contracting Branch. Due to our scope, 20 of the 21 contract files we reviewed were
the responsibility of one contracting officer, which was also the same contracting officer that had
made the unauthorized commitments.

To accomplish our audit objectives, we performed the following procedures:

       ·   Obtained and reviewed documents, such as OPPM policies and procedures, to gain an
           understanding of the processes for processing contract actions and invoice payments.

       ·   Interviewed appropriate OPPM, POD, PSD, and OCIO staff, and third-party vendors to
           verify contracting actions, invoice payments, and review applicable procedures.

       ·   Reviewed and assessed selected contract file documentation against FAR, AGAR, and
           Departmental policies and procedures.

       ·   Reviewed internal controls implemented for IAS, as well as the corresponding policies
           and procedures, to determine if the policies were suitably designed and conformed to the
           minimum security requirements mandated by NIST.

       ·   Reviewed the DM and Staff Office IAS users and verified all users were active
           employees.

       ·   Specifically, for contract actions, we compared the information contained within IAS
           and ECM to corresponding contract files and invoice documentation to validate the
           reliability of the data. We also reviewed contract actions to determine the following:

                o solicitation competition requirements were met;

                o award decision justifications were documented within the contract files;

21
     Report obtained via www.USASpending.gov as of April 9, 2013.

14         AUDIT REPORT 92501-01-12
           o contract files meeting the POD internal review guidelines were properly
             reviewed;

           o invoices were properly approved by the appropriate official;

           o invoice data were reviewed, and all invoices provided by POD were verified to
             match the invoices provided by the vendor and investigated for any anomalies;

           o invoice data contained in IAS were validated with actual invoices provided by
             POD; and

           o information within the contract was compared to data contained in FPDS-NG.

    ·   Discussed the issues we found during our review with OPPM personnel to obtain their
        positions and responses.

We obtained a DM and Staff Office contract and invoice data extract from IAS. We tested the
reliability of the data specific to our scope by comparing physical documentation to the
electronic information contained within IAS. Additionally, we tested access controls and
authorized users of IAS, only as it pertains to DM and Staff Office personnel. We did not
perform any additional testing of the reliability of IAS data outside of our sample. We relied on
invoice copies located within ECM specific to our sample and compared the data to physical
copies of the invoices. However, we did not validate the data outside of our sample, nor did we
review any ECM system controls to determine the control environment’s effect on the reliability
of the data.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                                            AUDIT REPORT 92501-0001-12        15
Abbreviations 
AGAR ......................... Agricultural Acquisition Regulation
BPA ............................. Blanket Purchase Agreement
COR ............................ Contracting Officer’s Representative
DM…………………...Departmental Management
ECM………………….Enterprise Content Management
FAR ............................. Federal Acquisition Regulation
FISMA ........................ Federal Information Security Management Act
FMMI………………...Financial Management Modernization Initiative
FPDS-NG…………….Federal Procurement Data System-Next Generation
FY ............................... Fiscal Year
IAS…………………...Integrated Acquisition System
ID ................................ Identification
IPP ............................... Internet Processing Platform
IT ................................. Information Technology
NIST ........................... National Institute of Standards and Technology
NITC ........................... National Information Technology Center
OCIO…………………Office of Chief Information Officer
OIG ............................. Office of Inspector General
OPPM………………..Office of Procurement and Property Management
POD………………….Procurement Operations Division
PSD…………………..Procurement Systems Division
USDA………………...USDA Department of Agriculture

 




16     AUDIT REPORT 92501-01-12
Agency's Response 




                  USDA’S
       OFFICE OF PROCUREMENT AND
        PROPERTY MANAGEMENT’S 
        RESPONSE TO AUDIT REPORT 




                       AUDIT REPORT 92501-0001-12   17
United States                                                                       August 30, 2013
Department of
Agriculture

Office of the
Assistant Secretary   TO:           Rod DeSmet
for Administration                  Deputy Assistant Inspector General for Audit
Office of
Procurement           FROM:         Joe Ware /s/ for Lisa M. Wilusz
and Property
Management                          Senior Procurement Executive
300 7th Street
                                    Office of Procurement and Property Management (OPPM)
Southwest
Room 302              SUBJECT:      Review of Procurement Operations (Audit Number 92501-01-12)
Reporters Building

Washington, DC
20024-9300
                      The Office of Procurement and Property Management’s (OPPM) reviewed the Office
                      of Inspector General’s (OIG) draft report regarding controls over the Procurement
                      Operation Division’s requisition, solicitation, and procurement processes, involving
                      vendors, procurement staff, and Departmental Management and Staff Office
                      personnel. The actions presented herein correspond to the recommendations discussed
                      in the OIG draft report, concerning the subject audit, dated June 19, 2013.

                      Recommendation 1
                      OPPM should require Departmental use of automated systems, such as the Integrated
                      Acquisition System, the Internet Processing Platform, and/or similar systems, to
                      maintain contractual documentation in a centralized repository, including documents
                      generated during the procurement and invoicing process.
                      Action 1 - Procurement Policy Division (PPD), issued the AGAR Advisory 105 on
                      October 1, 2012 for use of IAS. OPPM only manages IAS, consisting of Prism and
                      IProcurement. OPPM will continue to explore the applicability of adding other
                      systems to the Department’s mandate.

                      Recommendation 2
                      OPPM should develop a process to verify information entered into the Federal
                      Procurement Data System-Next Generation to help ensure it accurately reflects
                      information contained in the contract file.
                      Action 2 - OPPM issued AGAR Advisory NO. 87C, USDA Federal Procurement Data
                      Quality Plan, dated September 5, 2008, to implement policy and procedure of the
                      verification and validation of the Federal procurement data submitted to General
                      Service Administration to comply with the Office of Federal Procurement Policy’s
                      (OFPP) directive that Federal Agencies verify and validate the accuracy of the
                      information entered into the Federal Procurement Data System (FPDS). In addition,
                      the Procurement Operations Division will revise its internal Acquisition Operating
                      Procedure (AOP) Number 8, Preaward and Postaward File Review, to include FPDS-
                      NG by August 30, 2013.



                                              AN EQUAL OPPORTUNITY EMPLOYER
Recommendation 3
OPPM should implement sufficient procedures to periodically review all Integrated
Acquisition System accounts in order to detect excessive access rights and to verify
temporary account access is removed in a timely manner.
Action 3 – The Procurement Systems Division (PSD) has an established program for
the review/re-certification of both Privileged and Non-Privileged accounts. PSD, as a
result of this report, has already taken action to ensure that:
    • Roles that are not used in IAS have been removed.
    • All user roles are well defined.
PSD will explore procedures to enable regular Agency and internal review by user
permissions/roles.

Recommendation 4
OPPM should update its guidance to incorporate the Integrated Acquisition System’s
interface with the Financial Management Modernization Initiative system.
Action 4 - New IAS documents will no longer contain information and referencse to
FFIS. Existing IAS documents will be canceled, revised, or replaced, as necessary.

Recommendation 5
OPPM should evaluate whether it can streamline the Integrated Acquisition System
from two software packages to one.
Action 5 - PSD has already issued a Task Order to analyze options for the future state
of IAS.

Recommendation 6
Ratify the IT contract and have the contracting officer document why the warrant level
was exceeded, as required by the Federal Acquisition Regulation and the Agricultural
Acquisition Regulation.
Action 6 – Action completed per Recommendation #12. However, the AMRAP is
pending action by OPPM, Procurement Policy Division. Refer to Fourth Data Center
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 1.

Recommendation 7
Take the necessary actions to ensure that all contracts are administered in accordance
with Federal and Departmental regulations.
Action 7 - Action completed per Recommendation #12. However, the AMRAP is
pending action by OPPM, Procurement Policy Division. Refer to Fourth Data Center
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 2.

Recommendation 8
Determine if other contracting officers exceeded their warrants and take any
appropriate management action.
Action 8 - Action completed per Recommendation #12. However, the AMRAP is
pending action by OPPM, Procurement Policy Division. Refer to Fourth Data Center

                        AN EQUAL OPPORTUNITY EMPLOYER
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 3.

Recommendation 9
Implement the necessary internal controls to ensure warrant levels are not exceeded.
Action 9 - Action completed per Recommendation #12. Refer to Fourth Data Center in
Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 4. Recommendation 4, item (e) (AMRAP Review) as shown on
the subject audit will be provided upon completion.

Recommendation 10
Formalize the weekly status reporting tool and implement the necessary controls to
help ensure the reports provide effective oversight of contracting officers’
procurement activities.
Action 10 - Action completed per Recommendation #12. Refer to Fourth Data Center
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 5.

Recommendation 11
Ratify all contracts that were obligated by contracting officers with insufficient
warrant authority.
Action 11 - Action completed per Recommendation #12. Refer to Fourth Data Center
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 6.

Recommendation 12
Issue a modification for all contracts where the contracting officer has changed.
OPPM responded to the Fast Report (http://www.usda.gov/oig/webdocs/92-501-0001-
12(1).pdf) upon its release and subsequently on February 12, 2012. Based on these
responses, we are able to reach management decision upon issuance of this report.
Additionally, on March 22, 2013, we received a status update from OPPM, detailing
the corrective action taken to address the issues noted in this finding, including
revising a checklist to ensure all pre- and post-award acquisition requirements are
documented, developing a procurement management oversight plan, and performing a
complete review of contract files. According to the update, all recommendations have
been addressed with the exception of an Acquisition Management Review of POD; the
results of this review are pending. Based on the initial response and the subsequent
actions taken, no additional response to Recommendations 6-12 is necessary.
Action 12 - Action completed per Recommendation #12. Refer to Fourth Data Center
in Support of the USDA eMail Consolidation Audit 92-501-0001-12 (1),
Recommendation No. 7.

Please contact Brinder Billups at Brinder.Billups@dm.usda.gov or 202-720-8946 with
any questions or concerns.



                       AN EQUAL OPPORTUNITY EMPLOYER
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
